USCA11 Case: 20-10971

Date Filed: 11/10/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-10971-A
AVERY BRADFORD
Petitioner-Appellant,
versus
CLINTON PERRY,
Respondent-Appellee.
Appeals from the United States District Court
for the Middle District of Georgia
ORDER:
Avery Bradford moves for a certificate of appealability in order to appeal the dismissal of
his habeas corpus petition, filed pursuant to 28 U.S.C. § 2254. His motion is DENIED because he
has failed to make a substantial showing of the denial of a constitutional right. See 28 U.S.C.
§ 2253(c)(2). His motions for leave to proceed in forma pauperis on appeal and appointment of
counsel are DENIED AS MOOT.

/s/ Robert J. Luck
UNITED STATES CIRCUIT JUDGE

Case 3:19-cv-00016-CAR-CHW Document 33 Filed 02/13/20 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
ATHENS DIVISION
AVERY BRADFORD,
Case No. 3:19-CV-16

Petitioner,
v.

Proceedings under 28 U.S.C. § 2254
CLINTON PERRY,
Respondent.

ORDER ON RECOMMENDATION
OF THE UNITED STATES MAGISTRATE TUDGE

Before the Court is the United States Magistrate Judge's Recommendation [Doc.
25] to dismiss Petitioner's Petition for Writ of Habeas Corpus pursuant to 28 U.S.C. § 2254
as procedurally barred. Petitioner has filed an Objection to the Recommendation [Doc.
31] wherein he restates arguments and contentions that have been thoroughly and
completely addressed in the Recommendation. This Court has fully considered the
record in this case and made a de novo determination of the portions of the
Recommendation to which Petitioner objects. Having done so, the Court finds
Petitioner's Objection unpersuasive and agrees with the Recommendation to dismiss the
petition. Accordingly, the Magistrate Judge's Recommendation [Doc. 25] is HEREBY
ADOPTED AND MADE THE ORDER OF THE COURT. Petitioner's Petition for Writ
of Habeas Corpus pursuant to 28 U.S.C. § 2254 [Doc. 1] is DISMISSED with prejudice.

Case 3:19-cv-00016-CAR-CHW Document 33 Filed 02/13/20 Page 2 of 2

Additionally, because Petitioner has failed to make a substantial showing of the denial of
a constitutional right, a certificate of appealability is DENIED. Any motion to proceed in
forma pauperis on appeal is DENIED because there is no good faith basis for an appeal.
It is SO ORDERED this 13th day of February, 2020.

s/C. Ashley Royal
C. ASHLEY ROYAL, SENIOR JUDGE
UNITED STATES DISTRICT COURT

2

Case 3:19-cv-00016-CAR-CHW Document 34 Filed 02/13/20 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
ATHENS DIVISION
AVERY BRADFORD
Petitioner,

*
*

Case No.

v.

3:19-CV-16-CAR-CHW

*

CLINTON PERRY,

*

Respondent.
*

JUDGMENT
Pursuant to this Court’s Order dated February 13, 2020, having accepted the recommendation of
the United States Magistrate Judge, in its entirety, JUDGMENT is hereby entered dismissing this action.
This 13th day of February, 2020.
David W. Bunt, Clerk
s/ Gail G. Sellers, Deputy Clerk

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.cal 1 .uscourts.gov

David J. Smith
Clerk of Court

December 17, 2020
Avery Bradford
Macon SP - Inmate Legal Mail
PO BOX 426
OGLETHORPE, GA 31068-0426
Appeal Number: 20-10971 - A
Case Style: Avery Bradford v. Clinton Perry
District Court Docket No: 3:19-cv-00016-CAR-CHW
This Court requires all counsel to file documents electronically using the Electronic Case
Files ("ECF") system, unless exempted for good cause. Non-incarcerated pro se parties
are permitted to use the ECF system by registering for an account at www.pacer.gov.
Information and training materials related to electronic filing, are available at
www.calLuscourts.gov.
The enclosed order has been ENTERED.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Denise E. O'Guin, A
Phone#: (404) 335-6188
MOT-2 Notice of Court Action

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.cal 1 .uscourts.gov

David J. Smith
Cierk of Court

May 21, 2020
Avery Bradford
Macon SP - Inmate Legal Mail
PO BOX 426
. OGLETHORPE, GA 31068-0426
Appeal Number: 19-13541-DD
Case Style: Avery Bradford v. Clinton Perry
District Court Docket No: 3:19-cv-00016-CAR-CHW
Notice of receipt: Motion for appointment of counsel as to Appellant Avery Bradford. No action
will be taken. This appeal is closed. There is no further relief available from this court.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Bradly Wallace Holland, DD
Phone#: 404-335-6181
MP-1

RECEIVED

- 9 2021
IupREMe"Coif

y
.4./’ # x

19-13541

o

oy avv1 ^ «
Ay
NT ^
*

Avery Bradford
#326474
Macon SP - Inmate Legal Mail
PO BOX 426
OGLETHORPE, GA 31068-0426

»*

/

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.calLuscourts.gov

David J. Smith
Clerk of Court

December 17, 2020
Avery Bradford
Macon SP - Inmate Legal Mail
PO BOX 426
OGLETHORPE, GA 31068-0426
Appeal Number: 20-10971 - A
Case Style: Avery Bradford v. Clinton Perry
District Court Docket No: 3:19-cv-00016-CAR-CHW
The Court has received your motion for appointment of counsel. No action will be taken
because the appeal is closed.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Denise E. O'Guin, A/ so
Phone #: (404) 335-6188
MP-1

20-10971

RECEIVED
DEC 2 3 2020
Maifroom
Macon SP.

Avery Bradford
#326474
Macon SP - Inmate Legal Mail
PO BOX 426
OGLETHORPE, GA 31068-0426

No. 20-10971

/k

3fn tlje

®mteij States Court of Appeals
tor tlje v£U'Vu'ntl) Circuit
Avery Bradford,
Petitioner /Appellant,
v.
Clinton Perry, Warden,
Respondent /Appellee.
On Appeal from the United States District Court
Middle District of Georgia, Athens Division.
No. 3:19-CV-16 — C. Ashley Royal, District Judge
<

CERTIFICATE OF INTERESTED PERSONS

►

Christopher M. Carr
Attorney General of Georgia
Beth A. Burton
Deputy Attorney General
Paula Smith
Senior Assistant Attorney
General
Matthew B. Crowder
Assistant Attorney General
Office of the Georgia
Attorney General
40 Capitol Square, SW
Atlanta, Georgia 30334
(404) 656-5172
mcrowder@law.ga. gov
Counsel for Appellee

)

CERTIFICATE OF INTERESTED PERSONS
I hereby certify that the following persons may have an
interest in the outcome of this habeas corpus case filed by a state
prisoner:
1) Bradford, Avery - Petitioner/Appellant;
l.

2) Carr, Christopher M., Attorney General - Counsel for
Respondent/Appellee;
3) ChafLn, James V. - State Prosecutor;
4) Crowder, Matthew B. — Counsel for Respondent/Appellee;
5) Forwood, Jon R. - State Prosecutor;
6) Lobdell, Caryn — State Appellate Counsel for
Petitioner/Appellant;
7) Mauldin, Kenneth W., District Attorney — State Prosecutor;
8) Perry, Clinton, Warden - Respondent/Appellee;
9) Queen, Carole Rayeanne Childers — Victim;
10) Rowe, Misty Lynn — Victim;
11) Royal, Hon. C. Ashley - United States District Judge;
12) Sizemore, Hon. W. James - State Habeas Corpus Judge;
13) Stephens, Hon. Lawton E. — State Trial Judge;
14) Swinglej Ryan J. - State Trial Counsel for
Petitioner/Appellant;

15) Weigle, Hon. Charles H. - United States Magistrate Judge.
Respectfully submitted,
Isl Matthew B. Crowder
Assistant Attorney General

CERTIFICATE OF SERVICE
I do hereby certify that I have this day served the within and
foregoing Certificate of Interested Persons, prior to filing the
same, by placing a copy in the United States Mail, with sufficient
postage and properly addressed upon:
Avery Bradford
GDC #326474
Macon State Prison
P.O.Box 426
Oglethorpe, Georgia 31068
This 18th day of March, 2020.

/s/ Matthew B. Crowder
Assistant Attorney General

0

b.\Tra> NT VTl'S C/OLRI OK APPEALS
LOR THK KI.KVKNTJI (’•[RU:iT
M:lii !WK H illi. COCRi'Oi” Ai'Ph-U.S HI II.IHMi

Kor niics rpid ionm

David I. &m;h.
Clark 5.r Court

August 25, 2020
Avery Bradford
Macon SP - Inmate Legal Mail
PO BOX 426
dGLETHORPE.-GA 31068-0426
Appeal Number: 19-13.54 i-DD
Case Style: Avery Bradford v. Clinton Perry
District Court Docket No: 3:19-cv-OOO 16-CAR-CH W
Notice of receipt: Inquiry as to Appellant Avery Bradford.
This appeal is closed. The appeal was dismissed for lack of jurisdiction on November 6. 2019.
The order dismissing the appeal was previously seat to you on two separate occasions. There is
no further.relief available from this court.
Sincerely.
DAVID J. SMITH, Clerk of Court: .
Reply to: Bradly Wallace Holland, DD
■Phone #: 404-335-6181
MP-1

,1

VERIFICATION

]S>&SiA-k M
swear and affirm under penalty of law that the
statements contained m\ this affidavit are^ue. I further attest that this application for in fonna pauperis
status is not presented to harass or to cause unnecessary delay or needless increase in the costs of
litigation.
>
I amthe plaintiff in this action and know the content of the above Request to Proceed in Forma Pauperis.
,i* tWFjVy ^1116 answers I have given are true of my own knowledge, except as to those matters that are
aN
on my information and belief, and as to those matters I believe them to be true. I have read the
SCt °Ut a^ove
3111 aware
penalties for giving any false information on this form.
CQ

■s

‘jSrS'yol

Signature of

it Plaintiff

^ , 1 • ~ZO

Date

Notary Public or

I

I

Administrative Office of the Courts (Revised 9-10-14)

131

Form CA-2

O'

USCA11 Case: 20-10971

Date Filed: 12/17/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-10971-A
AVERY BRADFORD,
Petitioner-Appellant,
versus
CLINTON PERRY,
Respondent-Appellee.
Appeals from the United States District Court
for the Middle District of Georgia
Before: LUCK and LAGOA, Circuit Judges.
BY THE COURT:
Avery Bradford has filed a motion for reconsideration of this Court’s order dated
November 10, 2020, denying a certificate of appealability, leave to proceed in forma pauperis, and
appointment of counsel in his appeal from the denial of his underlying habeas corpus petition,
28 U.S.C. § 2254. Upon review, Bradford’s motion for reconsideration is DENIED because he
has offered no new evidence or arguments of merit to warrant relief.

